No. 19-67
IN THE
___________

UNITED STATES OF AMERICA,
PETITIONER,
V.

EVELYN SINENENG-SMITH,
RESPONDENT.
On Writ of Certiorari to the
United States Court of Appeals for the Ninth Circuit
__________

BRIEF FOR THE CATO INSTITUTE AS
AMICUS CURIAE SUPPORTING RESPONDENT
__________

January 22, 2020

Ilya Shapiro
Counsel of Record
Trevor Burrus
Michael T. Collins
CATO INSTITUTE
1000 Mass. Ave. N.W.
Washington, D.C. 20001
(202) 842-0200
ishapiro@cato.org

i
QUESTION PRESENTED
Whether the federal criminal prohibition against encouraging or inducing illegal immigration for commercial advantage or private financial gain violates the
First Amendment.

ii
TABLE OF CONTENTS
TABLE OF AUTHORITIES ....................................... iii
INTEREST OF AMICUS CURIAE ............................. 1
INTRODUCTION AND
SUMMARY OF ARGUMENT............................... 1
ARGUMENT ................................................................ 5
I.

THE GOVERNMENT’S MERGER OF THE
PREDICATE OFFENCE AND THE
SENTENCING ENHANCEMENT DOES NOT
THAW THE CHILLING EFFECT OF
§ 1324(a)(1)(A)(iv).................................................. 6
A. The Government’s Understanding of
Alvarez Is Wrong and Does Not Justify the
Piecemeal Overbreadth Doctrine the
Government Requests ....................................... 6
B. Apprendi Is a Shield Protecting Against
Increased Sanctions for Facts not Found
by a Jury, not a Sword Allowing the
Government to Evade the First Amendment
with Sentencing Enhancements ....................... 9
C. Even the Government’s Most Radical
Rewrite Fails to Prevent the Chilling
Effects Respondents Describe......................... 13

II. CRIMINALIZING ENCOURAGEMENT AND
INDUCEMENT FOR FINANCIAL GAIN
CHILLS A BROAD SWATH OF PROTECTED
COMMERCIAL SPEECH ................................... 14
CONCLUSION .......................................................... 19

iii
TABLE OF AUTHORITIES
Page(s)
Cases
Apprendi v. New Jersey, 530 U.S. 466 (2000) ............. 9
Arizona v. United States, 567 U.S. 387 (2012) ......... 15
Ashcroft v. Free Speech Coal.,
535 U.S. 234 (2002) .................................. 4, 5, 14, 18
Board of Trustees of State Univ. of N.Y. v. Fox,
492 U.S. 469 (1989) ................................................ 14
Gooding v. Wilson, 405 U.S. 518 (1972) ...................... 5
Hildwin v. Florida, 490 U.S. 638 (1989) ................... 12
Hurst v. Florida, 136 S. Ct. 616 (2016) ..................... 12
INS v. St. Cyr, 533 U.S. 289 (2001)........................... 13
Members of City Council of City of L.A. v.
Taxpayers for Vincent, 466 U.S. 789 (1984) ............ 5
Schenck v. United States, 249 U.S. 47 (1919) ............. 2
Texas v. Johnson, 491 U.S. 397 (1989)........................ 6
United States v. Alvarez, 567 U.S. 709 (2012) .. passim
United States v. Booker, 543 U.S. 220 (2005) ........... 11
United States v. Stevens, 559 U.S. 460 (2010) ............ 5
United States v. Williams, 553 U.S. 285 (2008)........ 14
Wash. State Grange v. Wash. State Republican
Party, 552 U.S. 442 (2008) ....................................... 5
Statutes and Other Authorities
Cal. Dep’t of Motor Vehicles,
AB 60 Driver License ............................................. 17

iv
H.R. Rep. No. 113-84 (2013) ........................................ 7
Immigration Reform and Control Act of 1986,
Pub. L. No. 99-603, § 112 ....................................... 12
Omnibus Consolidated Appropriations Act, 1997,
H.R. 3610, 104th Cong. (1996) ............................... 12

1
INTEREST OF AMICUS CURIAE1
The Cato Institute is a nonpartisan think tank dedicated to individual liberty, free markets, and limited
government. Cato’s Robert A. Levy Center for Constitutional Studies promotes the principles of constitutionalism that are the foundation of liberty. To those
ends, Cato conducts conferences and publishes books,
studies, and the annual Cato Supreme Court Review.
This case interests Cato because of its implications
for the freedom of speech in a variety of contexts. In
addition, as an advocate of less-restrictive immigration policies, Cato and its employees could run the risk
of violating the criminal statute at issue.
INTRODUCTION AND
SUMMARY OF ARGUMENT
A popular YouTuber with a large following in the
illegal immigrant community produces a video featuring an impassioned plea for illegal immigrants to stay
in the country despite current anti-immigrant sentiment. He argues that, even if an alien is violating the
law, it’s better to stay here and prosper in America.
The video goes viral, and the YouTuber produces a series of such videos, each one earning him more subscribers and more ad revenue. Would he have knowingly or recklessly “encourage[d] or induce[d] an alien
to come to, enter, or reside in the United States” in vi-

Rule 37 statement: Both parties have consented to the filing of
this amicus brief. No party’s counsel authored any of this brief;
amicus alone funded its preparation and submission. Also, with
no direct financial gain from this case, amicus is ineligible for a
subparagraph (B)(i) enhancement in the event this brief encourages unlawful aliens to remain within the United States.
1

2
olation of federal law? Would he be eligible for a sentencing enhancement because he arguably did it “for
the purpose of commercial advantage or private financial gain”?
The fact that the answer to this question is unclear—and that under a plain reading of the statute at
issue it seems that the YouTuber did commit a federal
crime—says just about everything about this case.
To adapt the stunningly broad language used by
the government in Ms. Sineneng-Smith’s case, would
the YouTuber have “inspired hope in his viewers” and
“influenced their decision to stay in the country”? Gov.
C.A. Br. at 33. The government claims it has never
prosecuted such people as the hypothetical YouTuber,
and, if asked, would certainly aver to this Court that
it would never do so. But if pleading prosecutorial discretion defeated overbreadth challenges, then there
would be no overbreadth challenges.
More importantly, if the YouTuber asked a lawyer
about the law, should the lawyer, going off a plain
reading of the statute, advise him that he may very
well be violating federal law by making the videos?
And if the YouTuber didn’t make the videos—probably
wisely—would that be a paradigmatic example of
“chilling” First Amendment-protected speech?
Here’s another not-so hypothetical: A member of
the Socialist Party distributes fliers advocating that
young men “assert their rights” and resist conscription, arguing that it violates the Thirteenth Amendment. Schenck v. United States, 249 U.S. 47, 51 (1919).
Would a law prohibiting someone from “encouraging”
or “inducing” someone to resist conscription run afoul
of the First Amendment?

3
Title 8 U.S.C. § 1324(a)(1)(A)(iv) taken on its own
criminalizes protected speech and is overbroad under
the First Amendment. The Court need not adopt the
government’s rewritten version, which merges the
predicate offence with the sentence enhancement. If
the Court looks at this statute in the context of a sentencing enhancement charged below, however, the enhancement is still irrelevant to the chilling effect of the
predicate offence. A vast swath of legitimate commercial speech is chilled by the predicate offence plus the
sentence enhancement.
The enhancement in subparagraph (B)(i) does not
thaw the chill of (A)(iv) simply because it offers increased penalties. The government misreads United
States v. Alvarez, 567 U.S. 709 (2012), and proffers a
theory that, in an overbreadth challenge, the Court
may only evaluate the predicate offence in conjunction
with any sentence enhancement the government happens to charge. Alvarez invalidated a statute proscribing false claims to have won service medals, with additional penalties for claiming to have won the Medal
of Honor. But Alvarez does not require courts to look
only at the predicate offence in conjunction with the
applicable sentence enhancement. Justice Breyer’s
concurrence flatly rejected such a reading by positing
that a statute limited to special awards might survive
scrutiny. Nevertheless, the government treats the factual focus on lying about the Medal of Honor as though
an overbroad statute may be saved by a sentence enhancement. That could lead to the absurd result of a
ban on flag-burning that survives scrutiny because of
a sentence enhancement for, say, inciting a riot.

4
Nor is it relevant to the chilling effects of the main
statute that the elements of the sentencing enhancement be proven to a jury before they may increase a
defendant’s sentence. The jury instructions and forms
in this case show that subparagraph (A)(iv) is the predicate offence where the chilling effect must lie. J.A. at
118–21. The jury here was asked whether the defendant was guilty of violating (A)(iv) and then asked if the
financial gain enhancement could be applied. A defendant’s ability to scrupulously prove she had not
been motivated by financial gain would do nothing to
save her from a guilty verdict—nor save the hypothetical YouTuber if he showed a lack of profit motive. The
chilling effect remains with the predicate offence.
The government offers to rewrite the statute and
rectify the “cosmetic drafting choice” Congress made in
treating (B)(i) as a separate sentence enhancement rather than create two predicate offences, one with a financial gain element and one without. Pet. Br. at 40–
41. But this Court should not be in the business of
writing statutes, and even if this Court were to rewrite
the statute, the base burden of the revised statute
would be on speech. The statute as a whole would be
unconstitutionally overbroad regardless of additional
non-speech elements the government may look to.
Overbreadth cases necessitate hypotheticals because legitimate speakers are often cowed by the “severe penalties” incurred for violating speech prohibitions. Ashcroft v. Free Speech Coal., 535 U.S. 234, 244
(2002). Under the statute, immigration attorneys,
medical professionals, YouTubers, Cato Institute policy scholars, and members of the Court’s own bar can
fear the consequences of their legitimate speech. Indeed, a good-faith agent in Ms. Sineneng-Smith’s

5
place, one who was merely mistaken about the availability of certain immigration programs, could still face
decades in prison for conduct that involved no fraud.
ARGUMENT
Title 8 U.S.C. § 1324(a)(1)(A)(iv), even limited by
(B)(i), is facially invalid. When statutes regulate or
punish protected speech, “the transcendent value to all
society of constitutionally protected expression” justifies attacking the overinclusive prohibition. Gooding v.
Wilson, 405 U.S. 518, 520–21 (1972). The Constitution
protects people “from overbroad laws that chill speech
within the First Amendment's vast and privileged
sphere.” Ashcroft, 535 U.S. at 244.
Under the First Amendment, a law is invalid “as
overbroad if ‘a substantial number of its applications
are unconstitutional, judged in relation to the statute’s
plainly legitimate sweep.’” United States v. Stevens,
559 U.S. 460, 473 (2010) (quoting Wash. State Grange
v. Wash. State Republican Party, 552 U.S. 442, 449, n.6
(2008)). “[A] statute may be challenged on its face even
though a more narrowly drawn statute would be valid
as applied to the party in the case before it.” Members
of City Council of City of L.A. v. Taxpayers for Vincent,
466 U.S. 789, 799 (1984) (citing Gooding, 405 U.S.
518).
Amicus endorses respondent’s arguments that subparagraph (A)(iv), itself, is overbroad. Furthermore,
the government is wrong to suggest that subparagraph
(B)(i) in some way limits this Court’s review of (A)(iv).
A statute limited to prohibiting commercial speech
that encourages or induces aliens to remain in the
United States would still have “a substantial number
of its applications [be] unconstitutional.”

6
I. THE GOVERNMENT’S MERGER OF THE
PREDICATE OFFENCE AND THE
SENTENCING ENHANCEMENT DOES NOT
THAW THE CHILLING EFFECT OF
§ 1324(a)(1)(A)(iv)
Ms. Sineneng-Smith posits that § 1324(a)(1)(A)(iv),
standing alone, is unconstitutionally overbroad and
chills protected speech beyond the legitimate scope of
the statute. Resp. Br. at 14 et seq. This provision
should be viewed on its own for an overbreadth challenge. The sentencing enhancement provisions in
(B)(i) are irrelevant to (A)(iv)’s chilling effect.
A. The Government’s Understanding of Alvarez Is Wrong and Does Not Justify the
Piecemeal Overbreadth Doctrine the Government Requests
Suppose Congress passed a proscription levying a
$50 fine for burning cloth on sticks, but if that cloth is
the American flag, then the fine is doubled. A court
may wish to consider a challenge to that statute only
in the context of the sentence enhancement. If, however, a statute proscribes burning the American flag
with a $50 fine, and five days in jail are added if the
flag is burned for financial gain, then a court would
quickly invalidate the predicate offence regardless of
the sentencing enhancement. Cf. Texas v. Johnson,
491 U.S. 397 (1989).
In United States v. Alvarez, neither the plurality
nor the concurrence required or encouraged courts to
look only at the predicate offence tied to a sentence enhancement. 567 U.S. 709 (2012). The concurrence’s
reasoning impliedly contradicts the government’s
reading. See 567 U.S. at 736 (Breyer, J., concurring in

7
judgment). Potential speakers gain no solace from Alvarez and will continue to be chilled by subparagraph
(A)(iv) regardless of any militating influence of the
subparagraph (B)(i) enhancement.
A four-justice plurality and two-justice concurrence
together invalidated the Stolen Valor Act in Alvarez.
Id. at 730. As the government notes, Pet. Br. at 38, the
plurality reached this conclusion by examining the
act’s general prohibition against falsely claiming to
have won military honors, along with the sentence enhancement for falsely claiming to have won the Congressional Medal of Honor. Alvarez, 567 U.S. at 715–
16. The concurrence, however, did not distinguish between general and enhanced offences. See id. at 736
(Breyer, J., concurring in judgment) (noting that the
statute covers marksmanship awards).2
Instead, the concurrence contemplated versions of
the statute that may have survived. Pertinent to the
government’s reading, Justice Breyer suggested that
Congress could determine that certain awards, like the
Medal of Honor, deserve greater protection and thus
limit the Stolen Valor Act to encompass only those.3 Id.
at 737. Despite the ability to reconstruct a more First
Amendment-conscious statute, the concurrence still
noted that the statute as written was unconstitutional.

Nor can the government look to the dissent, which makes no
suggestion that analysis should be limited to the Medal of Honor
enhancement. See Alvarez, 567 U.S. at 739 (Alito, J., dissenting).
2

Congress, accepting that the predicate offense of claiming military honors was invalidated by Alvarez, took Justice Breyer’s suggestion to heart and limited the act to certain specific medals.
H.R. Rep. No. 113-84, at 4 (2013). It also added the requirement
of specific intent to obtain a tangible benefit. Id.
3

8
Nevertheless, the government treats the factual focus on lying about the Medal of Honor as if the predicate offence may be ignored if a sentence enhancement
is present. This is a stretch from the more reasonable
conclusion that the plurality mainly considers the
Medal of Honor because that is the lie the defendant
happened to tell. See id. at 713 (plurality).
Even if the distinction in Alvarez was relevant, it
was left unremarked upon. The sentence enhancement
in Alvarez forbade a particular lie as opposed to a general lie. The act proscribed generally stating, “I won
awards in the army” and added additional penalties
for specific speech: “I won the Congressional Medal of
Honor.” But subparagraph (B)(i) does not, in any way,
alter the proscribed speech as in Alvarez. Thus, the
lower court was correct that subparagraph (B)(i) is irrelevant to the chilling analysis of subparagraph
(A)(iv).
As with the hypothetical flag burning statute, the
chilling effect of subparagraph (A)(iv) has to be viewed
on its own. Any person reading § 1324(a)(1) would read
subparagraph (A)(iv) as self-actualizing, just as any
person who read the Stolen Valor Act would be chilled
from claiming to have won medals, whether the Medal
of Honor or for marksmanship. And anyone who reads
the hypothetical Flag Burning Act above would be
chilled from flag burning, regardless of whether they
stand to gain financially. Similarly, any person reading § 1324 would be chilled by (A)(iv) alone, regardless
of the sentence enhancements in (B)(i)–(iv). This is emphasized, not lessoned, by the government’s arguments invoking Apprendi v. New Jersey.

9
B. Apprendi Is a Shield Protecting Against
Increased Sanctions for Facts not Found
by a Jury, not a Sword Allowing the Government to Evade the First Amendment
with Sentencing Enhancements
1. Apprendi focuses on the requisite burden of
proof for increased sentencing.
The government is attempting to weaponize Apprendi v. New Jersey, 530 U.S. 466 (2000). Apprendi
states the Constitution’s guarantee that every fact
supporting an upward departure from a crime sentencing range must meet the same burden of proof as the
facts of the predicate offence. Id. at 482. The government must submit additional facts needed for a sentence enhancement—like facts supporting a financial
gain incentive per (B)(i)—to a jury before seeking the
enhanced sentence; nothing more, nothing less. In this
case, the facts of the predicate offence—encouraging or
inducing an alien to immigrate illegally—must be
found by a jury beyond a reasonable doubt, which automatically qualifies for sentencing under subparagraph (B)(ii). If the government adds a financial-gain
enhancement, then a jury must find the facts supporting that charge beyond a reasonable doubt as well.4
That distinction is seen in the instructions given to
the jury below. J.A. at 118–21. Counts one, two, and

This is only true for subparagraphs (A)(ii), (iii), and (iv). If a jury
find the requisite facts for a violation of subparagraphs (A)(i) or
(A)(v)(I) then the sentence automatically falls under subparagraph (B)(i) with no necessary additional facts to find under Apprendi. 8. U.S.C. § 1324(a)(1)(B)(i). No charge of aiding and abetting under (A)(v)(II) will qualify for (B)(i) enhancement.
4

10
three ask the same questions with respect to three aliens. Id. Each is divided into parts (a) and (b). Id.
Count one reads:
On or About June 5, 2005, Encouraging or Inducing an Alien Identified by the Name Oliver
Galupo to Reside in the United States
Id. at 118. There is no mention here of a financial gain.
Question 1(a) then asks:
As to Count One of the Superseding Indictment, WE FIND defendant Evelyn SinenengSmith:
Id. This instruction provides the jury foreman with a
choice of not guilty and guilty, still with no mention of
the financial gain incentive. The jury foreman is next
told.
If you find Ms. Sineneng-Smith not guilty of
Count 1 in question 1(a), skip question 1(b) and
go directly to Count Two. If you find Ms.
Sineneng-Smith guilty of Count 1 in question
1(a), please answer question 1(b).
Id. (emphasis in original). If the jury finds Ms.
Sineneng-Smith guilty of the predicate offence, then,
and only then, does Apprendi come into play. For sentencing, the district judge must know beyond a reasonable doubt the answer to 1(b):
Has the government proven beyond a reasonable doubt that defendant Evelyn SinenengSmith committed the offense in Count One for
private financial gain?
Id. at 119. It is only with an affirmative answer to 1(b)
that the judge can constitutionally move from the default sentencing scheme in subparagraph (B)(ii) to the

11
enhanced sentencing scheme in (B)(i). Had the jury returned a negative, Ms. Sineneng-Smith would still face
prison. 8 U.S.C. § 1324(a)(1)(B)(ii). The question of financial gain arose only if the jury finds that Ms.
Sineneng-Smith committed the elements necessary to
be guilty under subparagraph (A)(iv) alone.
The government cautions against ascribing constitutional significance to the “label” of sentencing enhancement. Pet. Br. at 40 (quoting United States v.
Booker, 543 U.S. 220, 231 (2005)). This is fine advice
in the context of Booker, where that label meant the
difference between a defendant receiving his full
rights under the Constitution and the government
working around the constitutional standard for criminal convictions by labeling crimes as sentence enhancements. The advice is inapposite here. The label
here is an easy means of distinguishing between the
predicate offence that threatens to chill speech and one
of several additional penalties for the speech.
Speech is chilled by the command against “encourag[ing] or induc[ing]” regardless of whether a
(B)(i) or (B)(ii) sentence is tacked on. The innocent
speaker cannot take heart in her ability to flawlessly
prove to a jury that she neither sought nor received
any commercial advantage or financial gain. If the jury
answers that she is guilty of encouragement or inducement and returns a negative to the financial gain question, the government will not let her walk free with a
handshake and apology. They will seek a sentence under the default of subparagraph (B)(ii) where no Apprendi factors impede them. Apprendi does nothing to
thaw the chill of this statute because the additional
conduct and additional sentence are irrespective of the
speech forming the predicate offence.

12
2. Statutory interpretation matters outside of
Apprendi’s core holding should be limited to
statutes passed in Apprendi’s wake.
Unquestionably, Apprendi applies retroactively to
every substantive crime masquerading as a sentence
enhancement, regardless of when it was written into
law. See, e.g., Hurst v. Florida, 136 S. Ct. 616 (2016)
(overruling in part Hildwin v. Florida, 490 U.S. 638
(1989), which applied Apprendi to a sentencing scheme
previously upheld under pre-Apprendi case law). Accordingly, the Court may reasonably believe that legislation passed after Apprendi is written cognizant of
the requirement that sentence enhancements receive
the same fact-finding rigor as the predicate offence.
But subparagraph (B)(i) was added to the statute
in 1986, 14 years before Apprendi. Immigration Reform and Control Act of 1986, Pub. L. No. 99-603, §
112. And the portion of (B)(i) concerning financial gain
was added four years before Apprendi. Omnibus Consolidated Appropriations Act, 1997, H.R. 3610, 104th
Cong. § 203 (1996). Under Apprendi, the government
acted properly at the sentencing stage by asking the
jury whether this enhancement has been proved beyond a reasonable doubt. Before Apprendi clarified the
rights of defendants, it is unclear that Congress considered (B)(i) as anything other than an add-on to the
predicate violations of subparagraph (A).
Even interpreting § 1324 in light of Apprendi, that
case only adds a jury requirement if, and only if, a defendant is convicted under the predicate offence. the
predicate offence alone should be the basis for an overbreadth challenge.

13
C. Even the Government’s Most Radical Rewrite Fails to Prevent the Chilling Effects
Respondents Describe
The government finally defends the inclusion of
subparagraph (B)(i) in the overbreadth analysis of
subparagraph (A)(iv) by urging the Court not to invalidate the statute for a “cosmetic drafting choice.” Pet.
Br. at 40–41. But that “cosmetic” choice is the entire
statutory organization. The government contends that
there is no difference between the statutory scheme
that Congress created after deliberation and a reorganization where Congress instead created two versions of subparagraph (A)(iv): subsection (i) with a financial-gain enhancement and subsection (ii) without.
Despite the government’s cosmetology, this change
would represent a radical departure from this Court’s
usual constitutional interpretive method. While courts
must construe a statute to avoid constitutional problems where it is “fairly possible” to do so, INS v. St.
Cyr, 533 U.S. 289, 300 (2001), this Court is not required to redraft statutes in a form aligned with the
Constitution. See Alvarez, 567 U.S. at 736–38 (Breyer,
J., concurring in judgment) (examining possible alternative formulations of the statute at issue). The legislative power is not vested in this branch.
Even with this “cosmetic” reorganization, the fact
that a sub-subparagraph of (A)(iv) would contain an
additional financial gain element would be immaterial
to the chilling effect of (A)(iv) as a whole. Speech said
with the intent of financial gain—commercial speech—
is protected by the First Amendment.

14
II. CRIMINALIZING ENCOURAGEMENT AND
INDUCEMENT FOR FINANCIAL GAIN
CHILLS A BROAD SWATH OF PROTECTED
COMMERCIAL SPEECH
This law criminalizes protected commercial speech
that incidentally encourages or induces aliens to unlawfully remain in the United States. As Ms.
Sineneng-Smith notes, the breadth of protected speech
criminalized here “dwarfs” any legitimate sweep the
statute has. Resp. Br. at 35. While amicus has previously argued to this Court that the commercial/noncommercial speech distinction should be eliminated,
lesser scrutiny for commercial speech does not matter
here. “Some of our most valued forms of fully protected
speech are uttered for a profit,” and some of our most
valued forms of protected commercial speech are
chilled by the statute here. Board of Trustees of State
Univ. of N.Y. v. Fox, 492 U.S. 469, 482 (1989).
Overbreadth cases necessitate hypotheticals about
scenarios not before the Court. As the Court has noted,
legitimate speakers are often cowed by “severe penalties” risked by violating unconstitutional speech prohibitions. See Free Speech Coal., 535 U.S. at 244. As in
any law school class, hypotheticals are a necessary
evil.5 This Court must “strike a balance between competing social costs.” United States v. Williams, 553
U.S. 285, 292 (2008). A statute is invalid under the
The government correctly notes that the Court below did not cite
any actual prosecutions, but rather presented a series of examples of speech that could be chilled by the statute. Pet. Br. 32. Had
the government prosecuted this conduct the First Amendment violation would be obvious to all. But this ignores the very reason
this Court recognizes facial challenges when protected speech is
at risk: the chilling effect on law-abiding citizens who will avoid
prosecution by abiding by the law.
5

15
First Amendment “if it prohibits a substantial amount
of protected speech,” which necessitates thinking beyond the case at bar to the protected speech of the community. Id.
For example, the government may convict an immigration attorney of this crime merely by showing that
the attorney, knowing her client was present unlawfully, counseled her about the advantages to remaining in the United States—and did so in the hope that
she might receive a fee. Indeed, as noted by Respondents, the government admits this point. Res. Br. at 3.
The government offers two answers to neutralize
this hypothetical. First, citing the Model Rules of Professional Conduct, it suggests that instead of advising
her client to remain in the country, the lawyer must
merely state the client is “unlikely to be removed.” Pet.
Br. at 35. Left unexplained is how this would not qualify as encouragement, or why requiring a lawyer to
limit her communication with clients to vague suppositions rather than clear answers is not an example of
chilled speech. A lawyer would still be forbidden from
telling her client what she most needs to know, the
benefits of staying rather than leaving, which could induce the client to remain. Additionally, Model Rule
1.2(d) concerns advising clients on future criminal endeavors. Continued residence is not criminal. Arizona
v. United States, 567 U.S. 387, 407 (2012). A lawyer
should be able to advise this course of action without
running into Model Rule 1.2 issues.
The government understandably views immigration matters from an enforcement perspective. In response to the Ninth Circuit’s example of an immigration attorney, the government points to the requirement that the alien’s residence be in violation of law.

16
Cert. Pet. at 18. Because aliens already in removal proceedings are not in violation of the law when given a
reprieve during the proceedings, the government suggests that the legal advice they seek after the commencement of proceedings will not violate (A)(iv) and
(B)(i). Id. This is true, and immigration attorneys entering at this stage need not be chilled. But illegal aliens are often concerned with the uncertainty of their
status, and they often seek immigration assistance before the government catches them and grants them
temporary legal reprieve. That large body of aliens
concerned with their own status includes, pertinently,
the aliens “encouraged” by Ms. Sineneng-Smith in this
case, who sought preventative immigration assistance.
This statute also criminalizes this hypothetical exchange with a proactive concerned alien of indeterminate status who seeks advice about the Deferred Action for Childhood Arrivals (DACA) program. Imagine
this conversation:
Alien: I want to stay in America. My parents
brought me here from Ruritania when I was
four. I don’t even speak Ruritanian. But if I
can’t figure out whether I qualify for DACA, I
will have to leave.
Attorney: I am an immigration lawyer and can
help. Come by my office at 123 Fake Street. I
normally bill $75 per hour.
Alien: I don’t know, I think I should just leave.
Attorney: How about we look at your situation
first? Stay put until we have done that, let’s
schedule a consultation next week.

17
Here the attorney has knowingly encouraged a particular alien to remain in the country in reckless disregard for whether remaining violates federal law, and
for financial gain.
Apart from lawyers, additional vital services rely
on commercial speech that would be sanctioned by the
combined statute. A pediatrician may encourage patients to stay in America because of vital care being
delivered to an illegally present child. To convict the
pediatrician of this crime, the government need only
prove that, for the purpose of financial gain, she knowingly encouraged specific aliens—her patients or their
families—to remain in the United States in knowing
or reckless disregard of the fact that such residence is
in violation of law. Informing the patient that there is
no better available care than what they can receive in
the United States is protected speech. That information would certainly “encourage” or “induce” a patient to remain where medical care is superior.
This statute also covers public servants trying to
help aliens access state programs. To convict a California Department of Motor Vehicles employee of this
crime, the government need only prove that she knowingly encouraged or induced a particular alien—any of
the available customers—to reside in the United
States by informing them about the California’s special licenses for unlawful aliens.6 The special licenses
allow such persons to drive and thus be more likely to
California forbids employees from denying a driver license because the candidate is an unlawful alien, if such person can prove
California residency. Cal. Veh. Code § 12801.9. Such employees
are caught between violating state and federal law. See also Cal.
DMV, AB 60 Driver License, https://www.dmv.ca.gov/portal/dmv/detail/ab60 (last visited Jan. 17, 2020).
6

18
remain in the United States. The DMV’s workers salary would be the financial gain.
Despite the statute’s sweeping range, on reading
the government’s brief, one is left with the impression
that if not for § 1324(a)(1)(A)(iv), in conjunction with
(B)(i), it would be unable to prosecute immigration
fraud. Unfortunately for Ms. Sineneng-Smith, that is
not the case. Ms. Sineneng-Smith’s fraudulent activities were charged and convicted under a separate statute. But if Ms. Sineneng-Smith had instead acted under the wrong impression that the program she was
utilizing was still valid, she would have lacked the
mens rea for fraud. If she advised her clients about the
existence of a legitimate program, and her clients were
induced to remain unlawfully in the country, no fraud
would have been committed. But she could have been
convicted under this overbroad statute that captures
malicious fraud and innocent advice alike.
In a “textbook example” of why the facial challenges to statutes that burden expression are a necessity, this Court has noted that “severe penalties”
would prove too great a risk to legitimate speakers.
Free Speech Coal., 535 U.S. at 244. Here the Court
need only ask whether this defendant, if she had not
committed any malum prohibitum act of fraud, would
be punished solely for her speech. She would have
faced decades in prison and undefined fines.

19
CONCLUSION
For the foregoing reasons, and those presented by
respondent, the Court should affirm the court below.
Respectfully submitted,

January 22, 2020

Ilya Shapiro
Counsel of Record
Trevor Burrus
Michael T. Collins
CATO INSTITUTE
1000 Mass. Ave. N.W.
Washington, D.C. 20001
(202) 842-0200
ishapiro@cato.org

